U.S. Department of                                            The Inspector General             Office of Inspector General
Transportation                                                                                  Washington, D.C. 20590
Office of the Secretary
of Transportation


December 21, 2012

The Honorable Darrell Issa
Chairman, Committee on Oversight
 and Government Reform
United States House of Representatives
Washington, DC 20515

The Honorable Elijah E. Cummings
Ranking Member, Committee on Oversight
 and Government Reform
United States House of Representatives
Washington, DC 20515

Dear Chairman Issa and Ranking Member Cummings:

Thank you for your December 5, 2012, letter requesting that we provide our
10 highest priority open 1 recommendations—5 short-term and 5 long-term—to
improve agency efficiency and reduce waste. 2 You also asked that we describe
whether and what ways agency management solicits our input about how to improve
efficiency and reduce waste.

We continue to support the Department through our audits and investigations as it
carries out its mission to improve the management and execution of programs and
protect resources from fraud, waste, abuse, and violations of law. As of
December 10, 2012, we have identified a total of 637 open recommendations, which
were included in 217 audit reports issued between September 2004 and November
2012. We considered several criteria in identifying the following open
recommendations as the highest priorities, 3 including their impact on safety,
economy, or efficiency; documented vulnerabilities; dollar implications; and the
ability of the Department to effect change in these programs or areas.
1
  Open recommendations include those for which the Department or an agency has either (1) concurred and proposed action
plans but has yet to complete implementation, (2) completed the planned actions but has yet to provide us with supporting
documentation, or (3) nonconcurred.
2
  Per your request, we define as short-term those recommendations that can be achieved by December 2013 and long-term as
those recommendations that can be achieved after December 2013.
3
  The recommendations we identified as high priority are from reports issued between 2010 and 2012. The order in which
the recommendations are listed does not indicate any order of priority within those lists.


CC-2013-007
                                                                                                                       2


Top Five Short-Term Open Recommendations

Operating              Open Recommendation                                               OIG Report
Administration
Federal Aviation       Ensure the collection and analysis of data regarding              FAA and Industry Are
Administration         domicile and commuting length for all Part 121 flight             Taking Action To Address
(FAA)                  crews. Specifically, information regarding the number             Pilot Fatigue, but More
                       of pilots and other flight-crewmembers who                        Information on Pilot
                       commute, their methods of transportation, and the                 Commuting Is Needed,
                       distances they commute, should be collected.                      AV-2011-176,
                                                                                         September 12, 2011

Pilot fatigue is a longstanding safety issue but was highlighted after the fatal 2009
Colgan accident, in which both pilots commuted hundreds of miles prior to the flight.
Our report recommended that FAA collect and analyze information on pilot domicile
and commuting 4 to better target solutions to reduce fatigue within the aviation
industry. According to the Air Line Pilots Association, roughly 60 percent of its pilots
are commuters. FAA has agreed to conduct a “scan of available data” on pilot
commuting and will determine whether additional data could offer significant safety
benefits by February 2013.

Operating              Open Recommendation                                               OIG Report
Administration
Federal Aviation       Establish an integrated master schedule framework,                Status of Transformational
Administration         policy, and standard operating procedures that                    Programs and Risks to
(FAA)                  include the Segmented Implementation Plan and                     Achieving NextGen Goals,
                       transformational programs, and a timeline for                     AV-2012-094, April 2012
                       maturing this capability.

FAA now spends almost $1 billion annually to develop and implement the Next
Generation Air Transportation System (NextGen). However, it has yet to complete an
integrated master schedule to manage implementation of the six programs that will
provide the foundational technologies and infrastructure needed for NextGen. 5 The
planned master schedule will better coordinate these programs’ capabilities—many of
which are interdependent—and include timelines and completion dates. Without a
master schedule, FAA will be challenged to (1) fully address operational, technical,
and programmatic risks; (2) prioritize and make informed tradeoffs for programs’
costs and schedules; and (3) determine what capabilities should be delivered first to


4
  Commuting is a common aviation industry practice as pilots are not required to live within close proximity of their
assigned duty locations. Many pilots reside hundreds or thousands of miles from their duty locations, and their commutes
frequently involve cross-country air travel. For example, the National Transportation Safety Board’s Colgan investigation
revealed that out of 136 Newark-based Colgan pilots, 49 (36 percent), had commutes of at least 400 miles, with some
commuting from States such as California, Nevada, and Washington.
5
  These six programs are Automatic Dependent Surveillance-Broadcast, System Wide Information Management, Data
Communications, NextGen Network Enabled Weather, NAS Voice System, and Collaborative Air Traffic Management
Technologies.


CC-2013-007
                                                                                                                        3


provide users with the greatest benefits. FAA is currently working on the integrated
master schedule.

Operating              Open Recommendation                                                OIG Report
Administration
Department of          Clifton Gunderson recommended that DOT                             Quality Control Review of
Transportation         management ensure that OAs perform the quarterly                   DOT’s Audited
(DOT)                  inactive project reviews to ascertain that inactive                Consolidated Financial
                       obligations are liquidated in a timely manner                      Statements for Fiscal Years
                       throughout the year. Particular attention should be                2011 and 2010, QC-2012-
                       paid to stagnant or closed projects.                               009, November 2011

Clifton Gunderson conducted an independent audit of DOT’s financial statements and
identified a significant deficiency in internal controls over unliquidated obligations
(Undelivered Orders, or UDOs). 6 This weakness resulted in inactive grant UDOs of
approximately $1.4 billion. These are idle funds that DOT agencies can use for other
projects to improve transportation infrastructure and create jobs. DOT concurred with
our recommendation and in July 2012 initiated a 60-day, resource-intensive
remediation effort to identify and deobligate inactive UDOs that resulted in the
liquidation of $2.1 billion in unneeded UDOs. For fiscal year 2013, DOT plans to
issue policy requiring DOT agencies to perform quarterly reviews and annual
certifications of obligation balances and train personnel who handle them.
Implementing this recommendation will help the Department begin correcting a
persistent, systemic problem 7 with unliquidated obligations.

Operating              Open Recommendation                                                OIG Report
Administration
Federal Highway        Implement a coordinated and effective data-driven,                 Improvements to
Administration         risk-based approach for Division Offices and Directors             Stewardship and Oversight
(FHWA)                 of Field Services to review Agreements annually and                Agreements Are Needed To
                       make timely revisions, when appropriate.                           Enhance Federal-Aid
                                                                                          Highway Program
                                                                                          Management, MH-2013-
                                                                                          001, October 2012

Stewardship and oversight agreements are required by law and establish Federal and
State responsibilities to oversee about $40 billion in highway funds provided annually
to the States. While FHWA fulfilled the statutory mandate to enter into Agreements
with each State, the Agreements do not consistently reflect Federal requirements or
program risks and priorities that FHWA has identified and communicated to its
Division Offices. FHWA plans to implement this recommendation and others from
6
  UDOs represent goods or services ordered, which have not been received prior to the end of the reporting period. Grant
UDOs represent funding obligated through grantee agreements that have not been disbursed prior to the end of the reporting
period.
7
  UDOs were elevated to a material weakness during the fiscal year 2012 audit, and while DOT’s immediate efforts were
commendable and substantially reduced the unneeded UDO balance, additional action is needed to ensure UDOs are
deobligated in a timely manner in the future.


CC-2013-007
                                                                                                   4


our report through its Program of Oversight Initiatives (POI)—oversight plans at its
Division Offices. We have requested an action plan to clarify the relationship between
Agreements and the POIs and identify the criteria that FHWA’s three Directors of
Field Services—who oversee the Division Offices in their regions—will use to
approve POIs. We also recommended that the action plan be reflected in FHWA
guidance and in each Division Office’s POI.

Operating        Open Recommendation                                      OIG Report
Administration
Federal Motor    Publish a final rule on passenger carrier leasing with   Timely and Targeted
Carrier Safety   requirements similar to those for property carriers.     FMCSA Action Is Needed To
Administration                                                            Fully Address NTSB
(FMCSA)                                                                   Recommendations for
                                                                          Improving Passenger
                                                                          Carrier Oversight, MH-
                                                                          2012-087, April 2012

FMCSA oversees more than 3,000 passenger carriers that operate millions of trips per
year. Following its investigation of a fatal bus crash in 2008 near Victoria, Texas, the
National Transportation Safety Board (NTSB) recommended that FMCSA require
documentation of passenger carrier bus leases, as it does for property carriers. NTSB
determined the Texas bus company was, in effect, shielded from FMCSA oversight
because of a lease agreement with another company. FMCSA concurred with our
recommendation and plans to issue a final rule by December 31, 2013.

Top Five Long-Term Open Recommendations

Operating        Open Recommendation                                      OIG Report
Administration
Department of    Implement the use of PIV cards as the primary            Timely Actions Needed To
Transportation   authentication mechanism to support multi-factor         Improve DOT's
(DOT)            authentication at the system and application level for   Cybersecurity, FI-2011-022,
                 all DOT employees and contractors.                       November 2010

This is an administration priority, and the Office of Management and Budget required
that, by 2012, all Federal personnel use personal identity verification (PIV) cards to
log on to agency computers for multifactor user identity authentication. As of June
2012, only 42 percent of DOT’s systems were enabled for user logon with PIVs, and
only 7 percent actually used PIV for identity authentication. DOT concurred with our
recommendation, continued issuing PIV cards in fiscal year 2012, and designated PIV
card deployment for authentication as one of its top cybersecurity priorities for fiscal
year 2013. DOT plans to complete this action in fiscal year 2016.




CC-2013-007
                                                                                                              5


Operating            Open Recommendation                                          OIG Report
Administration
Department of        Develop and/or revise the Department’s EA policy and         DOT Does Not Have an
Transportation       procedures to address the following: development,            Effective Enterprise
(DOT)                maintenance, and use of EA in the IT investment              Architecture Program for
                     process.                                                     Management of
                                                                                  Information Technology
                                                                                  Changes, FI-2012-086,
                                                                                  April 2012

With approximately $3 billion in annual expenditures and about 400 information
technology (IT) systems, DOT has one of the largest IT investments in the Federal
Government. Under the Clinger-Cohen Act, 8 each Federal department must
implement a management framework—known as an “enterprise architecture” (EA)—
to effectively manage IT investments. An effective EA drives all information
technology changes and results in reduced costs in purchasing, training, and staffing;
improved security through the development and use of mandatory security standards;
and reduced technical risk by using industry standards on technology infrastructure.
Because DOT currently lacks an EA it cannot be sure that it is maximizing returns on
IT investments through cost savings, reducing duplicative systems, aligning
information technology to mission, and effectively spending information security
funds—all critical requirements in an environment of scarce resources. DOT
concurred and plans to develop an overarching policy by May 2013. However, DOT
indicated that it would need funding to implement this policy and would commit to a
completion date when funding becomes available.

Operating            Open Recommendation                                          OIG Report
Administration
Federal Railroad     Complete the National Rail Plan and include in it            FRA Has Made Progress in
Administration       measurable performance goals and clear stakeholder           Implementing PRIIA
(FRA)                roles.                                                       Responsibilities, but
                                                                                  Challenges for Long-Term
                                                                                  HSIPR Remain, CR-2012-
                                                                                  072, March 2012

The National Rail Plan (NRP) will form the framework for the future of passenger rail
across the entire country so that public and private stakeholders understand their roles
in developing services and can invest with certainty. When complete, the NRP will
also identify specific interstate corridor goals and measures of success. Delays in
establishing the NRP could result in FRA investing billions of dollars in Federal grant
funds without assurance that these efforts support national policy goals, and
stakeholders will remain reluctant to commit. FRA currently plans to complete the
NRP in June 2014.

8
  Clinger-Cohen Act (formerly the Information Technology Management Reform Act), Pub. L. No. 104-106, Division E
(1996); codified at 40 U.S.C. § 11101, et seq. (2011).


CC-2013-007
                                                                                                                  6


Operating               Open Recommendation                                              OIG Report
Administration
Federal Highway         Report regularly to internal and external stakeholders           Assessment of FHWA
Administration          on the effectiveness of States’ efforts to improve the           Oversight of the Highway
(FHWA)                  condition of the Nation’s deficient bridges based on             Bridge Program and the
                        the analysis of Highway Bridge Program expenditure               National Bridge Inspection
                        data and an evaluation of progress made in achieving             Program, MH-2010-039,
                        performance targets.                                             January 2010

According to FHWA, about one-fourth of the Nation’s more than 600,000 bridges
have major deterioration, structural cracks, or other deficiencies. Given the limited
funding to address these deficiencies, we have emphasized over the past 2 decades the
need to improve the quality of inspection data and implement data-driven, risk-based
oversight to prioritize bridge safety risks. Such action will also be critical to help
FHWA meet new requirements for more performance-based management of highway
bridges in the Moving Ahead for Progress in the 21st Century Act. 9 DOT agreed to
develop a new template by the end of 2013 to report on States’ efforts to address
deficient bridges and to take steps by 2015 to enhance the level of detail reported on
bridge conditions.

Operating               Open Recommendation                                              OIG Report
Administration
Federal Aviation        To assist FAA in achieving a successful air traffic facility     The Success of FAA’s Long-
Administration          realignment and consolidation plan, the Agency should            Term Plan for Air Traffic
(FAA)                   develop comprehensive and regularly updated cost                 Facility Realignments and
                        estimates that include, at a minimum, estimates for              Consolidations Depends on
                        construction, equipment, increased salaries, relocation          Addressing Key Technical,
                        expenses, and training.                                          Financial, and Workforce
                                                                                         Challenges, AV-2012-151,
                                                                                         July 2012

FAA has plans to realign or consolidate its network of manned air traffic control
facilities into centralized locations as a critical step in its NextGen efforts and in
replacing its aging infrastructure. Our recommendation is key due to FAA’s
multibillion-dollar cost estimate for the effort and the impact it will have on facilities
within the National Airspace System with respect to cost, technical challenges, and
the aviation workforce. FAA concurred with our recommendation and plans to
provide a detailed cost estimate for the first integrated facility in the New York
metropolitan area by December 31, 2014. To completely implement our
recommendation, FAA will also need to produce detailed financial information for
Congress and other stakeholders regarding its longer term plans for other facilities.




9
    The Moving Ahead for Progress in the 21st Century Act (MAP-21), Pub. L. No. 112-141 (2012).


CC-2013-007
                                                                                      7


Departmental Coordination with the Office of Inspector General

We are pleased to report that the Department involves our office in various ways to
aid its efforts to improve efficiency and reduce waste. These include requesting
reviews of specific issues; soliciting our ideas on how to improve its practices during
the course of audits; and inviting our staff to speak at conferences and panels, provide
modal briefings, or attend workshops. In addition, our senior audit executives meet at
least annually with senior management from each Operating Administration to discuss
top audit priorities for combating waste, fraud, and abuse as well as ways to improve
program efficiency. The following examples describe specific instances of our
collaboration with the Department:

 • The Federal Transit Administrator requested that our office review oversight
   procedures in its Region III to supplement the Agency’s senior management
   nationwide review of its grant oversight program. We conducted the review and in
   August 2012 made six recommendations to enhance the level of oversight that the
   Federal Transit Administration (FTA) provides over grantees, develop
   performance measures assessing the effectiveness of the outcomes of its overall
   oversight program, and ensure regions do not close findings before receiving
   documentation showing that they have been fully resolved. FTA fully concurred
   and provided responsive plans to address our recommendations as it completes its
   review.

 • FAA’s Chief Counsel requested our assistance in identifying major organizational
   weaknesses that made its administration of multiple award support services
   ineffective. We provided general advice on weaknesses that existed in FAA’s
   Headquarters operations, such as a lack of acquisition professionals who should be
   in place to oversee the implementation of its Acquisition Management System and
   award of large support service contracts. In addition, the DOT Senior Procurement
   Executive requested that we present our findings on several ongoing acquisition
   audits and convey some of the management weaknesses we have encountered in
   our work at the 2012 DOT Spring Acquisition Conference.

 • At the request of the Deputy Secretary and Chief Information Officer, we
   developed Information Security Modal Report Cards, which score each
   Administration’s cybersecurity performance using the same methodology that the
   Office of Management and Budget uses to score the Department. The intent of the
   request was to obtain information to better target resources in addressing
   information security weaknesses throughout DOT. Historically, we had targeted
   our reviews of DOT’s information security at the Department level. In 2011, we
   briefed the Deputy Secretary and the Chief Information Officer on our first report
   cards, and, at their request, will continue to provide these report cards annually.




CC-2013-007
                                                                                        8


       We also briefed several Administrators on the specific results for their respective
       agencies.

     • After we reported in September 2010 to FAA that the performance measures for
       its Air Traffic Control Optimum Training Solution (ATCOTS) contract were
       ineffective for controlling costs and meeting goals, FAA requested our input on
       how to design performance measures to better hold the contractor accountable. We
       provided FAA with regulations and best practices documented in award fee guides
       used throughout the Federal Government to enhance its awareness of relevant
       guidance and practices that could be applied for the ATCOTS program.

     • Our office has both self-initiated and received invitations from Operating
       Administrations and State officials to give fraud awareness and prevention
       presentations. Since the inception of the American Recovery and Reinvestment
       Act, 10 our staff has conducted over 300 such briefings and meetings to more than
       21,000 participants. Audiences have included officials from FHWA, FAA, FRA,
       the District of Columbia and Puerto Rico, State DOT officials from every State,
       FTA officials, local transit authority staff, and local aviation authorities. These
       presentations aim to alert stakeholders to common fraud schemes (e.g.,
       disadvantaged business enterprise fraud, collusive bid rigging, product
       substitution, bribery and kickbacks, and conflicts of interest). In addition,
       Operating Administrations have invited our staff to give presentations at other
       forums, such as FTA’s workshops that take place across the country.

In closing, we appreciate the Department’s responsiveness to our findings and
recommendations and the Secretary’s commitment to ensuring the safe and efficient
operation of our national transportation system. We note that the Deputy Secretary is
actively engaged in working with DOT’s Operating Administrators to ensure that
appropriate corrective actions are quickly taken to resolve and close our
recommendations.

If you have any questions or need further information, please contact me at (202) 366-
1959 or Nathan Richmond, Director and Counsel for Congressional and External
Affairs, at (202) 493-0422.

Sincerely,



Calvin L. Scovel III
Inspector General

10
     American Recovery and Reinvestment Act (ARRA), Pub. L. No. 111-5 (2009).



CC-2013-007
